Audit Report




OIG-13-024
Audit of the Bureau of Engraving and Printing’s Fiscal Years
2012 and 2011 Financial Statements
December 17, 2012




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             December 17, 2012


            MEMORANDUM FOR LARRY R. FELIX, DIRECTOR
                            BUREAU OF ENGRAVING AND PRINTING

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Bureau of Engraving and Printing’s
                                    Fiscal Years 2012 and 2011 Financial Statements

            I am pleased to transmit the attached audited Bureau of Engraving and Printing
            (BEP) financial statements for fiscal years 2012 and 2011. Under a contract
            monitored by the Office of Inspector General, KPMG LLP, an independent certified
            public accounting firm, performed an audit of the financial statements of BEP as of
            September 30, 2012 and 2011 and for the years then ended. The contract required
            that the audit be performed in accordance with generally accepted government
            auditing standards; applicable provisions of Office of Management and Budget
            Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG LLP found that the financial statements were fairly presented, in
            all material respects, in conformity with U.S. generally accepted accounting
            principles. However, KPMG LLP identified certain control deficiencies related to the
            implementation of the Oracle Operating System that were considered collectively to
            be a significant deficiency. Further, KPMG LLP found no instances of reportable
            noncompliance with laws and regulations tested.

            KPMG LLP also issued a management letter dated December 14, 2012 discussing
            certain matters involving internal control over financial reporting and its operation
            that were identified during the audit but were not required to be included in the
            auditors’ reports. This letter will be transmitted separately.

            In connection with the contract, we reviewed KPMG LLP’s reports and related
            documentation and inquired of its representatives. Our review, as differentiated
            from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on BEP’s financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated December 14, 2012 and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Shiela Michel, Manager, Financial Audits at
(202) 927-5407.

Attachment
 THE DEPARTMENT OF THE TREASURY
BUREAU OF ENGRAVING AND PRINTING


           Financial Statements


 Years ended September 30, 2012 and 2011


(With Independent Auditors’ Reports Thereon)
                                          THE DEPARTMENT OF THE TREASURY
                                         BUREAU OF ENGRAVING AND PRINTING
                                                  FINANCIAL STATEMENTS
                                      FOR THE YEARS ENDED SEPTEMBER 30, 2012 AND 2011

                                                                   TABLE OF CONTENTS




INDEPENDENT AUDITORS’ REPORT ................................................................................................................. 1


FINANCIAL STATEMENTS ................................................................................................................................... 2

     Balance Sheets ....................................................................................................................................................... 2
     Statements of Operations and Cumulative Results of Operations ......................................................................... 3
     Statements of Cash Flows ...................................................................................................................................... 4
     Notes to the Financial Statements .......................................................................................................................... 5

INDEPENDENT AUDITORS’ REPORT
   ON INTERNAL CONTROL OVER FINANCIAL REPORTING ................................................................ 15

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE
   AND OTHER MATTERS ................................................................................................................................ 20
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                         Independent Auditors’ Report


The Inspector General, Department of the Treasury and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have audited the accompanying balance sheets of the Bureau of Engraving and Printing (the Bureau) as
of September 30, 2012 and 2011, and the related statements of operations and cumulative results of
operations, and cash flows (hereinafter referred to as “financial statements”) for the years then ended.
These financial statements are the responsibility of the Bureau’s management. Our responsibility is to
express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the Bureau’s
internal control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Bureau of Engraving and Printing as of September 30, 2012 and 2011, and the
results of its operations, and its cash flows for the years then ended in conformity with U.S. generally
accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated December 14,
2012, on our consideration of the Bureau’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, and contracts, and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in assessing the
results of our fiscal year 2012 audit.




December 14, 2012




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                  THE DEPARTMENT OF THE TREASURY
                                 BUREAU OF ENGRAVING AND PRINTING
                                                    Balance Sheets
                                           As of September 30, 2012 and 2011


                                                                                   2012                    2011
                                                                                          (In Thousands)
ASSETS
Current assets
  Cash (Note 3)                                                                $    117,993        $        130,178
  Accounts receivable (Note 10)                                                      54,355                  38,436
  Inventories, net (Note 4)                                                         144,676                 148,826
  Prepaid expenses                                                                    4,743                   3,698
Total current assets                                                                321,767                 321,138
Property and equipment, net (Note 5)                                                416,350                 381,507
Other assets, net (Note 6)                                                           19,606                  20,220
Total assets                                                                   $    757,723        $        722,865
LIABILITIES AND EQUITY
Liabilities
Current liabilities (Notes 7 and 8)
   Accounts payable                                                            $     18,980        $         33,683
   Accrued liabilities                                                               34,668                  35,949
   Advances                                                                           5,011                   8,460
Total current liabilities                                                            58,659                  78,092
Workers’ compensation liability (Note 8)                                             63,039                  62,423
Total liabilities                                                                   121,698                 140,515
Contingencies and commitments (Notes 12 and 13)
Equity
  Invested capital                                                                   32,435                  32,435
  Cumulative results of operations                                                  603,590                 549,915
Total equity                                                                        636,025                 582,350
            Total liabilities and equity                                       $    757,723        $        722,865


See accompanying notes to the financial statements.




                                                          2
                                THE DEPARTMENT OF THE TREASURY
                               BUREAU OF ENGRAVING AND PRINTING
                                        Statements of Operations and
                                       Cumulative Results of Operations
                               For the Years Ended September 30, 2012 and 2011


                                                                              2012                    2011
                                                                                     (In Thousands)
Revenue from sales (Note 10)                                              $      735,797      $        548,094
Cost of goods sold                                                               564,669               442,769
Gross margin                                                                     171,128               105,325
Operating costs:
  General and administrative expenses                                            108,326                80,433
  Research and development                                                         9,127                 8,314
                                                                                 117,453                88,747
Excess of revenues over expenses                                                  53,675                16,578
Cumulative results of operations at beginning of year                            549,915               533,337
Cumulative results of operations at end of year                           $      603,590      $        549,915


See accompanying notes to the financial statements.




                                                        3
                                THE DEPARTMENT OF THE TREASURY
                               BUREAU OF ENGRAVING AND PRINTING
                                           Statements of Cash Flows
                              For the Years Ended September 30, 2012 and 2011


                                                                            2012                    2011
                                                                                   (In Thousands)
Cash flows from operating activities
Excess of revenues over expenses                                        $        53,675     $         16,578
  Adjustments to reconcile excess of revenues over expenses
     to net cash provided by operating activities:
     Depreciation                                                                40,812               32,566
     (Gain) Loss from obsolescence                                                 (175)                 720
     Loss from disposal of property and equipment                                     -                   53
  Changes in assets and liabilities
     Increase in accounts receivable                                            (15,919)              (9,814)
     (Increase) decrease in inventories                                           5,102               (8,729)
     (Increase) decrease in prepaid expenses                                     (1,045)                 210
     Increase in other assets                                                      (163)              (4,102)
     Increase (decrease) in accounts payable                                    (14,703)              13,639
     Increase (decrease) in accrued liabilities                                  (1,281)               2,436
     Decrease in advances                                                        (3,449)              (2,861)
     Increase in workers’ compensation liability                                    616                3,588
        Net cash provided by operating activities                                63,470               44,284
Cash flows from investing activities
Purchases of property and equipment                                             (75,655)             (67,768)
        Net cash used in investing activities                                   (75,655)             (67,768)
Net decrease in cash                                                            (12,185)             (23,484)
Cash at beginning of year                                                       130,178              153,662
Cash at end of year                                                     $       117,993     $        130,178




See accompanying notes to the financial statements.




                                                      4
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements

                                 September 30, 2012 and 2011


1. Reporting Entity

The Bureau of Engraving and Printing (Bureau), a component of the United States (U.S.)
Department of the Treasury, is the U.S. Government's security printer. The Bureau designs and
produces U.S. currency. The Bureau also advises and assists federal agencies in the design and
production of other U.S. Government documents requiring counterfeit deterrence or secure
production.

The Bureau operates under basic authorities conferred by the Act of July 11, 1862, (12 Stat. 532;
also, 31 U.S.C. 5114) and other laws and regulations. In accordance with the provisions of
Public Law 81-656, effective August 4, 1950, the operations of the Bureau are financed by
means of a revolving fund. This fund is reimbursed through billings to the Bureau's customers
for products delivered. Public Law 95-81 authorized the Bureau to include in its product prices
an amount to provide funding for the acquisition of capital equipment and future working
capital. Invested capital represents the historical value of the initial contribution made by the
Federal Government.

The financial statements represent the consolidation of two federal revolving funds. The
majority of all financial transactions are contained in the Bureau of Engraving and Printing
Revolving Fund, which finances Bureau operations. The other revolving fund, the Mutilated
Currency Revolving Fund, is used to redeem damaged paper currency received from the public.
All significant balances and transactions between the funds have been eliminated in
consolidation.

2. Summary of Significant Accounting Policies

Basis of Accounting

The Bureau has historically prepared its financial statements in conformity with U.S. generally
accepted accounting principles (GAAP), based on accounting standards issued by the Financial
Accounting Standards Board (FASB), the private-sector standards-setting body. Under such
standards, the Bureau prepares its financial statements using the full accrual basis of accounting
under which revenues are recognized when earned and expenses are recognized as incurred,
regardless of when cash is exchanged.

The Federal Accounting Standards Advisory Board (FASAB) has been designated by the
American Institute of Certified Public Accountants as the standards-setting body for financial
statements of Federal Government entities, with respect to the establishment of GAAP. FASAB
has indicated, however, that financial statements prepared based upon accounting standards
published by the FASB may also be regarded as in conformity with GAAP for those federal
agencies, such as the Bureau, that have issued financial statements based upon FASB accounting
standards in the past. Accordingly, consistent with historical reporting, the Bureau’s financial
statements are presented in accordance with accounting standards published by the FASB.




                                                5
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements

                                  September 30, 2012 and 2011

Estimates

The preparation of financial statements in accordance with GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities and related
revenues and expenses. Those estimates most significant to the Bureau’s financial statements are
the actuarial estimates made by the Department of Labor (DOL) in arriving at the liabilities for
workers’ compensation, allowances for obsolescence, the useful lives of property and equipment,
the likelihood of losses associated with contingent liabilities, and certain accrued expenses at the
date of the financial statements. Such estimates and assumptions could change in the future as
more information becomes known, which could impact the amounts reported and disclosed
herein.

Cash

Cash represents the aggregate amount of the Bureau’s funds held on deposit with the U.S.
Treasury and are available to pay liabilities.

Inventories

Raw material and supply inventories are stated at standard cost, except for one advanced
counterfeit deterrent material, which is valued using the first-in-first-out (FIFO) method.
Finished goods inventories are stated at weighted average unit cost. All methods approximate
actual cost. Cost elements included in work-in-process and finished goods inventories are direct
materials, direct labor, manufacturing overhead and manufacturing support.

Any raw materials inventory determined to be obsolete will be immediately expensed resulting
in no allowance for inventory obsolescence for raw materials.

Property and Equipment

Property and equipment are recorded at cost. Major alterations and renovations are capitalized,
while maintenance and repair costs are charged to expense as incurred. The capitalization
threshold is $50,000. The Bureau capitalizes all cost associated with new construction and
building improvements.

The Bureau occupies and uses buildings and land owned by the Department of the Treasury.
The Bureau is not charged for the use of the buildings or land, but is responsible for maintenance
and repair of all buildings and land improvements. The land and building shell for the Bureau's
Western Currency Facility were donated by the City of Fort Worth, Texas to the Department of
the Treasury (See Note 5).

Depreciation of property and equipment is calculated using the straight-line method over the
following estimated useful lives:

        Machinery and equipment                                            3 - 15 years
        Building improvements                                              3 - 40 years
        Information technology (IT) equipment and software                 3 - 5 years
        Office machines                                                    5 - 10 years
                                                 6
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                 Notes to the Financial Statements

                                  September 30, 2012 and 2011

        Furniture and fixtures                                             5 - 10 years
        Motor vehicles                                                     3 - 9 years

Other Assets

Other assets consist principally of machine repair parts and tools, which are used in the
production of the Bureau's products. Other assets are stated at standard cost, which
approximates actual cost, net of a reserve for obsolescence.

Employee Retirement Plans

Bureau employees participate in the contributory Civil Service Retirement System (CSRS) or
Federal Employees' Retirement System (FERS), to which the Bureau and employees make
contributions according to plan requirements. Consistent with reporting under multi-employer
pension plans, the Bureau does not report CSRS and FERS assets, accumulated plan benefits or
future liabilities, if any, applicable to its employees. This data is reported for plan participants
by the Office of Personnel Management (OPM).

Postretirement Benefits Other than Pensions

Postretirement benefits for former Bureau employees, specifically health care costs and life
insurance, are administered and paid by OPM through appropriations received from the U.S.
Government. The Bureau does not reimburse OPM for these payments. The Bureau's financial
statements do not include the cost of employee postretirement benefits paid by OPM, or the
actuarial liability for such benefits.

Workers’ Compensation Costs

The Federal Employee Compensation Act (FECA) provides income and medical cost protection
to covered federal civilian employees injured on the job, employees who have incurred a
work-related occupational disease and beneficiaries of employees whose death is attributable to
a job-related injury or occupational disease. Claims incurred for benefits for the Bureau's
employees under FECA are administered by DOL and are ultimately paid by the Bureau.

The FECA liability consists of two components. The first component, the accrued FECA
liability, is based on actual claims paid by DOL but not reimbursed by the Bureau. The Bureau
reimburses DOL for the amount of actual claims normally within one to two years after payment
is made by DOL. As a result, the Bureau recognizes a current and non-current liability for actual
claims paid by DOL, to be reimbursed by the Bureau.

The second component, the actuarial FECA liability, is the estimated liability for future benefit
payments. These future workers' compensation estimates were generated from an application of
actuarial procedures developed to estimate the liability for future FECA benefits. The actuarial
liability for future worker's compensation benefits includes the expected liability for death,
disability, medical and miscellaneous costs for approved compensation cases, plus a component
for incurred but not reported claims. The liability is determined using a method that utilizes
historical benefit payment patterns related to a specific incurred period to predict the ultimate
                                                 7
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                 Notes to the Financial Statements

                                   September 30, 2012 and 2011

payments related to that period. These annual benefit payments have been discounted to present
value using the Office of Management and Budget’s (OMB) economic assumptions for 10-year
Treasury notes and bonds, which resulted in discount rates as of September 30, 2012 and 2011,
of 2.29% and 3.54% in year one and 3.14% and 4.03% thereafter. The Department of the
Treasury allocated the overall liability to Treasury components based on past claims paid
information provided by DOL.

Annual, Sick, and Other Leave

Annual leave is accrued as a liability when earned and the accrual is reduced as leave is taken.
The balance in this accrued liability account reflects current pay rates.

Sick leave and other types of non-vested leave are expensed as the leave is taken.

Revenue Recognition

Revenue from sales to the Federal Reserve Board is recognized when finished goods
satisfactorily pass all Bureau quality control standards and are delivered to the on-site Federal
Reserve Depository vaults. Finished goods are released for shipment in accordance with
customer requirements. Revenue from the sale of uncut currency to the public is recognized at
the time the product is shipped. The Bureau does not record an allowance for returns because of
a historically negligible return rate.

Research and Development Costs and Public Education (Advertising) Costs

Research and development costs and public education costs are expensed as incurred. Public
education costs, which are reported in cost of goods sold, amounted to $0 and $3.1 million in the
years ended September 30, 2012 and 2011, respectively.

Tax Status

The Bureau is a federal entity, and therefore is not subject to federal, state, or local income taxes.
Accordingly, no provision for income taxes is made in the accompanying financial statements.

Contingencies

Liabilities from loss contingencies arising from claims, assessments, litigation, fines and
penalties, and other sources, are recorded when it is probable that a liability has been incurred
and the amount of the assessment and/or remediation cost can be reasonably estimated. Loss
contingencies that do not meet these criteria, but are reasonably possible and estimable are not
accrued, but are disclosed in Note 12.

Fair Value Measurements

ASC 820-10, Fair Value Measurements and Disclosures, establishes a fair value hierarchy that
prioritizes the inputs to valuation techniques used to measure fair value. The Bureau’s financial
instruments are comprised of cash, accounts receivable, accounts payable, accrued liabilities,
                                                  8
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements

                                   September 30, 2012 and 2011

and advances as of September 30, 2012 and 2011, respectively. The carrying amounts of these
financial instruments approximate fair value because of the short-term nature of these
instruments. The Bureau holds no financial instruments that are required by ASC 825-10 to be
valued at, reported, or disclosed at fair value as of September 30, 2012 or 2011.

3. Cash

The year-end cash balances by fund are as follows as of September 30, 2012 and 2011:

                                                                      (In Thousands)
                                                                    2012          2011

 Bureau of Engraving and Printing
   Revolving Fund                                                  $ 113,076      $ 126,264
 Mutilated Currency Revolving Fund                                     4,917          3,914
 Total                                                             $ 117,993      $ 130,178


The balance in the mutilated currency revolving fund, consisting of processed claims for
mutilated currency submitted by the public for redemption, is offset by a liability to the public
which is included in advances on the balance sheets as of September 30, 2012 and 2011,
respectively (See Note 7).

4. Inventories, net

Inventories consist of the following as of September 30, 2012 and 2011:

                                                                        (In Thousands)
                                                                     2012           2011
 Raw material and supplies                                         $ 75,418        $ 46,429
 Work-in-process                                                      41,736         40,203
 Finished goods - currency                                             7,302         48,270
 Finished goods - uncut currency                                      20,220         13,924
 Total                                                             $ 144,676      $ 148,826

The allowance for inventory obsolescence was $0 and $952 thousand, at September 30, 2012
and 2011, respectively.




                                               9
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements

                                 September 30, 2012 and 2011

5. Property and Equipment, net

Property and equipment consist of the following as of September 30, 2012 and 2011:

                                                                        (In Thousands)
                                                                     2012           2011

 Machinery and equipment                                           $ 494,201     $ 477,455
 Building and land improvements                                      251,335       234,314
 IT equipment and software                                            94,603        56,821
 Office machines                                                       2,791         2,791
 Furniture and fixtures                                                1,277         1,272
 Donated assets - art work                                               125           125
 Motor vehicles                                                          212           212
                                                                     844,544       772,990
 Less accumulated depreciation                                       553,642       512,831
                                                                     290,902       260,159
 Construction-in-progress                                            125,448       121,348
 Net property and equipment                                        $ 416,350     $ 381,507

Depreciation expense for the years ended September 30, 2012 and 2011 was $40.8 million and
$32.6 million, respectively.

The Bureau occupies and uses buildings and land owned by the Department of the Treasury.
The land and building shell for the Fort Worth, Texas facility were donated by the City of Fort
Worth to the Department of the Treasury in 1987, which holds the title thereto. At the time of
donation, the land had an appraised value of $1.5 million and the building shell cost was
$5.6 million. In accordance with the provisions of Public Law 81-656, Bureau financial
statements include only the costs to build out the facility.

6. Other Assets, net

Other assets consist principally of machine repair parts and tools. The allowance for
obsolescence for these parts and tools for the years ended September 30, 2012 and 2011 was
$6.7 million and $5.9 million, respectively.




                                              10
                          THE DEPARTMENT OF THE TREASURY
                         BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements

                                 September 30, 2012 and 2011

7. Current Liabilities

All current liabilities are funded and consist of the following as of September 30, 2012 and
2011:
                                                                       (In Thousands)
                                                                    2012            2011

 Intragovernmental                                                 $   5,843         $ 15,354
 With the public                                                      52,816           62,738
 Total                                                              $ 58,659         $ 78,092

 Accrued current liabilities consist of the following as of September 30, 2012 and 2011:

                                                                           (In Thousands)
                                                                        2012            2011

 Payroll                                                            $ 16,506         $ 17,591
 Annual leave                                                         11,628           11,591
 Workers' compensation                                                 5,595            5,270
 Other                                                                   939            1,497
 Total                                                              $ 34,668         $ 35,949

 Advances consist of the following as of September 30, 2012 and 2011:

                                                                           (In Thousands)
                                                                        2012            2011

 Other Federal Agencies                                             $         58     $     4,513
 Mutilated Currency                                                        4,917           3,914
 Public sales                                                                 36              33
 Total                                                                 $   5,011     $     8,460


8. Workers’ Compensation Liability

Claims incurred and paid by DOL as of September 30, 2012 and 2011, but not yet reimbursed to
DOL by the Bureau, are approximately $11.8 million and $12.3 million, of which approximately
$5.6 million and $5.3 million represent a current liability, as of September 30, 2012 and 2011,
respectively. The Bureau will reimburse DOL for these claims in the next two years. The
Bureau's estimated non-current, actuarially derived future workers’ compensation liability was
approximately $56.8 million and $55.4 million as of September 30, 2012 and 2011, respectively.
The Bureau’s estimated, undiscounted, non-current, actuarially derived future workers’
compensation liability was approximately $81.9 million and $87.5 million as of September 30,
2012 and 2011, respectively.



                                               11
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements

                                 September 30, 2012 and 2011

9. Employee Retirement Plans and Postretirement Benefits Other than Pensions

Employer contributions to the retirement plans were $18.3 million and $17.9 million for 2012
and 2011, respectively. The CSRS employer contribution rate for fiscal years 2012 and 2011
was 7.0%. The FERS agency contribution rate was 11.9% and 11.7% for fiscal years 2012 and
2011, respectively. The cost of providing the CSRS and FERS benefits is more than the
amounts contributed by the Bureau and the employees to OPM. The additional cost of providing
benefits, including the cost financed by OPM, which is not included in the Bureau's Statements
of Operations, totaled $25.7 million and $26.5 million in 2012 and 2011, respectively.

OPM paid costs totaling $10.7 million and $11.2 million for the Federal Employees Health
Benefits Program (FEHBP) and Federal Employees Group Life Insurance (FEGLI) programs in
2012 and 2011, respectively. These costs are not included in the Bureau's Statements of
Operations. The Bureau paid costs totaling $14.6 million and $14.1 million for the FEHBP and
FEGLI programs in 2012 and 2011, respectively.

10. Concentration of Revenue

The Bureau’s principal customers are other federal and quasi-federal governmental
organizations. During 2012 and 2011, the Bureau’s sales revenue from these organizations as
well as the outstanding amounts due from them as of September 30, 2012 and 2011, are reflected
in the following table:
                                        Revenue                    Accounts Receivable
                                     (In Thousands)                   (In Thousands)
                                  2012              2011             2012              2011
 Federal Reserve Board:
  Currency Production          $ 723,436         $ 523,009          $ 52,954         $ 36,993
  Mutilated Currency               3,277             3,472               804              873
 Other Federal Agencies            1,974             3,291                92              126
                                 728,687            529,772           53,850            37,992

 Public sales                      6,809             18,320                1                56
 Other                               301                  2              504               388
                                   7,110             18,322              505               444

 Total                         $ 735,797         $ 548,094          $ 54,355         $ 38,436

Revenues from other federal agencies are derived principally from the sale of security printing
products to U.S. Government agencies and related fees charged.

Substantially all products are sold on a fixed price basis. When the revenue from such pricing is
not sufficient to cover all costs and provide for necessary working capital the Bureau will
negotiate with the Federal Reserve Board for an additional surcharge. The required surcharge

                                               12
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                 Notes to the Financial Statements

                                  September 30, 2012 and 2011

totaled approximately $0 and $97.8 million in 2012 and 2011, respectively. This amount is
included in Revenue on the Statement of Operations.

11. Principal Suppliers

The Bureau is dependent upon sole suppliers for distinctive currency paper and several advanced
counterfeit deterrent materials.

12. Commitments and Contingencies

The Bureau is a party in various administrative proceedings, legal actions, and claims brought
against the Federal Government by employees, contractors, and other parties. As of
September 30, 2012 and 2011, there are no contingencies for litigation involving the Bureau,
where the risk of loss is probable. Contingencies, where the risk of loss is reasonably possible,
are approximately $3.4 million and $4.0 million as of September 30, 2012 and 2011,
respectively. Since the risk of loss for these litigations is not probable, the Bureau did not record
any liability. Management believes that the ultimate resolution of these litigations will not have a
material impact on the reported financial position, results of operations, and cash flows.

In 2007, a judge ruled that the current U.S. currency design violates Section 504 of the
Rehabilitation Act. The Court awarded no monetary damages. However, the Bureau is required
to provide meaningful access to United States currency for blind and other visually impaired
persons as part of the next currency redesign. The cost of currency changes necessary to provide
meaningful access will be incorporated into future currency redesign costs. No costs related to
the Court ruling have been accrued in the accompanying financial statements as of
September 30, 2012 and 2011.

The Bureau has contracted to purchase three large finishing presses, incorporating automated
inspection and packaging capability, costing approximately $53.0 million. As of September 30,
2012, the Bureau has made cumulative payments of $41.9 million and the remaining
commitment outstanding is $11.1 million. Delivery of the presses will be determined upon
successful completion of final factory inspection tests. Progress payments related to the above
contract is included in construction-in-progress within Property and Equipment on the balance
sheets as of September 30, 2012 and 2011, respectively.

The Bureau does not carry commercial insurance on its physical assets because by law the
Federal Government is self-insured.

13. Operating Lease

In 2002, the Bureau entered into a cancelable operating lease for warehouse space that expired in
2012. The operating lease for warehouse space was renewed in 2011 for an additional 10 years
and will expire in 2022.

Rental expense for the years ended September 30, 2012 and 2011 was $2.5 million and
$1.9 million, respectively.


                                                 13
                       THE DEPARTMENT OF THE TREASURY
                      BUREAU OF ENGRAVING AND PRINTING

                              Notes to the Financial Statements

                                September 30, 2012 and 2011

Future minimum payments under the lease as of September 30, 2012, are (in thousands):

                     For the years ending September 30:       Amount
                     2013                                     $ 3,039
                     2014                                       3,051
                     2015                                       3,064
                     2016                                       3,077
                     2017                                       3,090
                     Thereafter                                14,068
                     Total                                    $ 29,389

14. Subsequent Events

The Bureau has evaluated subsequent events through December 14, 2012, the date which the
financial statements were available to be issued. There were no material events that required
additional accruals or disclosures.




                                             14
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




             Independent Auditors’ Report on Internal Control Over Financial Reporting


To the Inspector General, Department of the Treasury, and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have audited the balance sheets of the Bureau of Engraving and Printing (the Bureau) as of
September 30, 2012 and 2011 and the related statements of operations and cumulative results of
operations, and cash flows (hereinafter referred to as “financial statements”) for the years then ended, and
have issued our report thereon dated December 14, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the Bureau is responsible for establishing and maintaining effective internal control
over financial reporting. In planning and performing our fiscal year 2012 audit, we considered the Bureau’s
internal control over financial reporting by obtaining an understanding of the design effectiveness of the
Bureau’s internal control, determining whether internal controls had been placed in operation, assessing
control risk, and performing tests of controls as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements, but not for the purpose of expressing an
opinion on the effectiveness of the Bureau’s internal control over financial reporting. Accordingly, we do
not express an opinion on the effectiveness of the Bureau’s internal control over financial reporting. We
did not test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2012 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above. However, we identified certain deficiencies in
internal control over financial reporting described in Exhibit I that we consider collectively to be a
significant deficiency in internal control over financial reporting. A significant deficiency is a deficiency,
or a combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance.


                                                                 15
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
The Bureau’s written response to the significant deficiency identified in our audit and presented in
Exhibit I was not subjected to the auditing procedures applied in the audit of the Bureau’s financial
statements and, accordingly, we express no opinion on it.

Exhibit II presents the status of the prior year significant deficiency.

We noted certain additional matters that we have reported to management of the Bureau in a separate letter
dated December 14, 2012.

This report is intended solely for the information and use of the Bureau’s management, the Department of
the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




December 14, 2012




                                                       16
                                                                                                    Exhibit I

                               Bureau of Engraving and Printing
            Independent Auditors’ Report on Internal Control Over Financial Reporting
                          Status of Prior Years’ Significant Deficiency


Deficiencies Identified Related to the Implementation of the Oracle Operating System

In fiscal year 2010, the Bureau introduced a multi-phase approach for upgrading its manufacturing and data
management systems titled, Bureau of Engraving and Printing Enterprise (BEN). The roadmap to
complete BEN included a series of manufacturing and data management system releases executed over a
span of two years. On April 1, 2011, the Bureau issued a manufacturing support system release within the
Office of Financial Management. This release was the first step in a full financial system conversion from
BEP’s legacy system, Bureau of Engraving and Printing Management Information System (BEPMIS), to a
new system, Oracle-On-Demand and encompassed the conversion of the general ledger, the fixed assets
sub-ledger, and the accounts receivable sub-ledger in fiscal year 2011. The remaining modules within BEN
(which made up the bulk of the modules and included additional financial system components) were
converted through a second release on October 2, 2011. Further upgrades to BEN in fiscal year 2012 were
issued through Releases 3 (January 2012) and 4 (May 2012).

We noted several control deficiencies, related to the financial reporting process and associated with the
Oracle implementation, which follow:

•   The recording of Public Sales became automated through the Oracle system on May 31, 2012. Bureau
    management did not perform a reconciliation of the cash receipts report to the sales activity reflected in
    the items shipped report for the months of June through September 2012 until October, 2012 due to a
    system error in the recording of sales returns and certain sales transactions. BEN uses the items
    shipped information to record revenue earned in the general ledger, as a result, the Bureau was unable
    to reconcile cash received with revenue earned during those months noted above.

•   A control gap exists in that the acquisitions department does not perform a monthly review of open
    Purchase Orders relating to Stock and Materials Requirements Planning (MRP) Orders to determine
    the reason an order is in open status because of insufficient staff and an inability to obtain the
    information from the system.

•   Oracle Purchasing automatically records accrued liabilities as goods and services are received. From
    October 2011 through May 2012, because of an incorrect system preference selected, BEP did not have
    a control in place to ensure invoices that only required a two-way match and related to purchase orders
    that were migrated into Oracle during the conversion were properly recorded.

•   The Bureau did not perform a reconciliation of the Work-In-Process Inventory (WIP) sub-ledger to the
    general ledger until July 2012. As such, no reconciliations were performed for the months of October
    2011 through June 2012. BEP management noted that machine hours from the shop floor were not
    properly transferring from the sub-ledger to the general ledger during the month of October 2011.
    Furthermore, Oracle was not properly measuring the actual costs of raw materials in order to generate
    standard costs until May 1, 2012. Both of these issues contributed to the improper valuation of WIP
    until May 2012. The reconciliations were subsequently performed biweekly during the months of
    August and September 2012.



                                                     17
                                                                                                    Exhibit I

                               Bureau of Engraving and Printing
            Independent Auditors’ Report on Internal Control Over Financial Reporting
                          Status of Prior Years’ Significant Deficiency


OMB Circular A-123 states, “Management is responsible for developing and maintaining effective internal
control. Effective internal control provides assurance that significant weaknesses in the design or
operation of internal control, that could adversely affect the agency’s ability to meet its objectives, would
be prevented or detected in a timely manner.”

A failure to properly reconcile account sub ledgers to the general ledger or properly accrue liabilities could
result in a misstatement of the related items on the financial statements. The Bureau determined that
inventory was understated by $2.1 million and public sales revenue was overstated by $140 thousand based
on the issues noted. A failure to review open purchase orders affects the ability of the Bureau to ensure
that orders are processed promptly and correctly. This could allow the possibility of unmatched receiving
documents or invoices to exist that are not being properly accrued.

We recommend the Bureau (1) review transaction and posting models within each sub-ledger of BEN to
ensure that the system is correctly set up and that underlying transactions in each sub-ledger are being
accurately reflected in the general ledger; (2) ensure that timely reconciliations of sub-ledgers to the
general ledger are performed throughout the year, and (3) design and implement a control to perform a
timely review of open purchase orders.

Management Response:

Management concurs with the recommendations and will take the necessary steps to implement policies
and procedures to ensure the timely and accurate review of reconciliations performed.




                                                     18
                                                                                        Exhibit II

                       Bureau of Engraving and Printing
    Independent Auditors’ Report on Internal Control Over Financial Reporting
                  Status of Prior Years’ Significant Deficiency


       Finding and Recommendations                                 Status
Internal Control Over Year End Liability
Accruals Needs Improvement
We recommend the Bureau (1) develop and
implement policies and procedures to improve
the reliability of reviews over significant and
unusual      accounting     transactions    and
reconciliations      by    individuals     most
knowledgeable of the subject matter, (2) ensure
policies and procedures are followed to verify    No control deficiencies related to the
all significant and unusual accounting            recording and review of Accounts
transactions     and    reconciliations    were   Payable were indentified in current year
performed properly, (3) require supporting        testing. We consider this finding closed.
documentation be provided with, and be
examined as part of, the Bureau’s review of
year end specific item accounts payable
estimates, and (4) ensure all year end specific
item accounts payable estimates are adequately
supported and properly accrued.




                                           19
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                  Independent Auditors’ Report on Compliance and Other Matters


The Inspector General, Department of the Treasury and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have audited the balance sheets of the Bureau of Engraving and Printing (the Bureau) as of
September 30, 2012 and 2011, and the related statements of operations and cumulative results of
operations and cash flows (hereinafter referred to as “financial statements”) for the years then ended, and
have issued our report thereon dated December 14, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the Bureau is responsible for complying with laws, regulations, and contracts
applicable to the Bureau. As part of obtaining reasonable assurance about whether the Bureau’s financial
statements are free of material misstatement, we performed tests of the Bureau’s compliance with certain
provisions of laws, regulations, and contracts, noncompliance with which could have a direct and material
effect on the determination of the financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations, and
contracts applicable to the Bureau. However, providing an opinion on compliance with those provisions
was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, disclosed no instances of
noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the Bureau’s management, the Department of
the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




December 14, 2012




                                                                20
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
